<html>
<title> - H. CON. RES. 328 AND H. CON. RES. 397</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                 H. CON. RES. 328 AND H. CON. RES. 397

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2000

                               __________

                           Serial No. 106-145

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-039 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
           Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Con. Res. 397, voicing concern about serious 
  violations of human rights and fundamental freedoms in most 
  states of Central Asia, including substantial noncompliance 
  with their Organization for Security and Cooperation in Europe 
  (OSCE) commitments on democratization and the holding of free 
  and fair elections.............................................     1
Markup of H. Con. Res. 328, expressing the sense of Congress in 
  recognition of the 10th anniversary of the free and fair 
  elections in Burma and the urgent need to improve the 
  democratic and human rights of the people of Burma.............     4

                                APPENDIX

Bills:

H. Con. Res. 397.................................................    14
H. Con. Res. 328.................................................    23
Admendment to H. Con. Res. 328...................................    28

 
                 H. CON. RES. 328 AND H. CON. RES. 397

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2000

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:35 p.m. in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter. The Subcommittee will be in order. I am 
unaccustomed to beginning a Subcommittee markup with only one 
Member. It could expedite the procedure. The Minority has 
indicated they have no objections to us proceeding. Actually, 
most Members of the Committee and the Subcommittee are involved 
in a meeting with the Acting Foreign Minister of Israel at this 
point, and, since that started late because of House votes, 
that explains why our Members are not here. But I would like to 
begin at least taking us part way, perhaps quite a way, through 
the Subcommittee markup agenda today.
    The Subcommittee meets in open session to consider two 
resolutions: First, H. Con. Res. 397, concerning the failure of 
most of the states of the Central Asia region to honor their 
commitments on democratization and free and fair elections; 
and, second, H. Con. Res. 328, regarding the need to improve 
democratic and human rights of the people of Burma.
    First, we will proceed to the markup of H. Con. Res. 397. 
That is the order of business. The Clerk will now read H. Con. 
Res. 397.


                   consideration of h. con. res. 397


    Mr. Ennis. House Concurrent Resolution 397: Voicing concern 
about serious violations of human rights and fundamental 
freedoms in most states of Central Asia, including substantial 
noncompliance with their Organization for Security and 
Cooperation in Europe commitments on democratization and the 
holding of free and fair elections.
    Mr. Bereuter. Thank you. Without objection, further reading 
of the resolution will be dispensed with, printed in the record 
in full, and open to amendment.
    [The resolution appears in the appendix.]
    Mr. Bereuter. I would like to explain that H. Con. Res. 397 
was introduced on September 12 by the gentleman from New 
Jersey, the Chairman of the International Operations 
Subcommittee, Mr. Smith. It is a significantly updated 
alternative to H. Con. Res. 204, which Mr. Smith had introduced 
last year. This Member is pleased to join Mr. Smith as a 
cosponsor of the resolution.
    With the collapse of the Soviet Union in 1991, five 
independent states of Central Asia--Kazakhstan, Kyrgystan, 
Tajikistan, Turkmenistan, and Uzbekistan--came into being. The 
deserts, mountains, steppes, and river valleys in this region 
are home to 50 million people. State borders, which were 
imposed by Stalin, artificially partition and breed resentments 
among various large ethnic groups, principally Russians, 
Uzbeks, and Tajiks.
    Since achieving their independence, the Central Asia 
Republics have operated with little or no international 
scrutiny. In effect, Central Asia has been relegated to an 
international policy backwater. However, given the geostrategic 
significance of the region and given the region's vast wealth 
of natural resources, such an oversight is risky. We ignore the 
region at our own peril.
    Regrettably, all of the countries of Central Asia appear to 
be moving along the path of authoritarianism at various paces. 
In recent months, each of the five countries has conducted 
general elections. These elections varied in the degree of 
electoral freedom. However, in no case did any of these 
elections meet internationally accepted norms. Indeed, most 
remain reminiscent of Soviet-style elections. There has been 
decertification of opposition parties and, in some cases, the 
apprehension of opposition leaders. The State Department's 
Country Reports on Human Rights Practices for 1999 concludes 
that Presidential power in Kazakhstan and Kyrgystan overshadows 
legislative and judicial power, and that Uzbekistan, 
Turkmenistan, and Tajikistan have lost ground in 
democratization and respect for human life. This continual 
decline is very disturbing, and it raises questions about the 
ability of the United States or other countries to successfully 
encourage true democratic institutions and the rule of law.
    In some ways, this is a difficult resolution. Each of the 
five countries has unique characteristics. Some enjoy certain 
socio-economic advantages over the others. Kyrgystan and 
Kazakhstan allow a relatively greater but still limited degree 
of political participation. The ruler in Turkmenistan has 
developed a cult of personality so deep that he is now referred 
as ``Father of the Turkmen.'' Tajikistan has suffered from a 
crippling civil war through the 1990's, but a common theme 
throughout Central Asia is governmental abuse of basic human 
rights. Without exception, opposition leaders who appear to be 
gaining influence are dealt with in a decisive antidemocratic 
manner.
    Now, it is certainly true that most, if not all, of the 
countries face armed insurgences. There are all-powerful tribal 
warlords in Tajikistan. In Uzbekistan and Kyrgystan there are 
armed religious extremists aided by the Afghan Taliban. In 
Kazakhstan, there have been efforts by pro-Moscow elements to 
overthrow the government. It is entirely appropriate that the 
governments of these countries deal with such threats. However, 
it is one thing to campaign against an armed insurgence, and it 
is quite another to use an insurgency as an excuse to suspend 
law and crack down on the legal political opposition. 
Unfortunately, that is precisely what has been done and 
continues today.
    H. Con. Res. 397 speaks to the very real abuses, then, that 
have occurred in each of the Central Asian Republics and puts 
the nations on alert that the House of Representatives is 
deeply concerned about the ongoing abuses of power. The 
resolution urges the nations to comply with their OSCE 
commitments and calls upon the President and Secretary of State 
to raise human rights concerns when meeting with the 
representatives of these governments.
    I congratulate the resolution's author, Mr. Smith, for 
introducing this resolution. The language he has crafted 
accurately reflects the serious democratic shortcomings 
throughout the region. It has been updated by us to include the 
most recent events in Kyrgystan. I appreciate the willingness 
of his staff to work with the Subcommittee on Asia and the 
Pacific to craft a resolution that we can all support.
    At this point, I would ask any Members in attendance if 
they wish to be heard in an opening statement on the resolution 
before us? The gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I support this 
resolution, H. Con. Res. 397. I have paid close attention to 
what is happening in Central Asia and it is a tragedy.
    It was just 10 years ago that this was a region with 50 
million people where there was great hope for a transition into 
a freer and better government and to a life with more 
prosperity. None of these expectations have been met. The 
reason there has been retrogression in Central Asia has been 
because those people in the power structure in those Central 
Asian Republics have refused to let loose of their iron grip, 
the grip that they learned they could control the population 
with during Stalinist times and all the way through to the fall 
of Communism.
    But those leaders in Kazakhstan, Uzbekistan, Azerbaijan, 
Turkmenistan, and others have refused to loosen their grip on 
the control and power in their own countries and permit their 
own people the degree of freedom that is necessary for 
prosperity, and for their countries to have tranquility and to 
be integrated into the prosperity of the whole Western 
economies. That is a tragedy for those countries and it is a 
tragedy for the West because this region had so much potential. 
The leaders of these countries have just let it slide and let 
this opportunity slip away.
    Today, we hear cries of anguish from these very same 
despots who had a chance to have democracy in their countries, 
crying out for help because of Islamic insurgences in their 
country. Who is to blame if there are insurgences in 
Uzbekistan, in Azerbaijan, Turkmenistan, and Tajikistan? Who is 
to blame? The very leaders that have refused to develop the 
democratic process. If there was a democratic process, an 
honest government in Central Asia, there would be no threat 
from Islamic fundamentalists.
    We see crocodile tears and hear the cries of anguish from 
these despotic regimes, and they themselves are at fault. I 
would call upon them to pay attention to H. Con. Resolution 397 
and not to blame their problems on an outside force that are in 
some way supporting Islamic fundamentalists, but instead to 
look to their own lack of willingness to permit democratic 
institutions to develop.
    One last note is that to the degree there is a 
fundamentalist threat destabilizing Central Asia, this 
Administration has to accept some responsibility. As I have 
said many times at these Committee hearings that we have had, 
this Administration is playing an ugly game and a deceitful 
game in terms of its position on the Taliban. I believe still 
to this day that this administration is secretly supporting the 
Taliban, which is unconscionable. To that degree, we should 
change our policies. But if Central Asia wants to succeed, they 
are going to have to have some democratic change in their own 
countries.
    Thank you very much, and I do support H. Con. Resolution 
397.
    Mr. Bereuter. Thank you, Mr. Rohrabacher.
    The gentleman from American Samoa, Mr. Faleomavaega, is 
recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
apologize. I was given notice that the hearing was at 2 p.m. 
not 1:30, and so that is the reason for my delay.
    But, nevertheless, I do want to thank you for your 
leadership and the fact that both the Majority and the Minority 
Members of the leadership have been able to work out 
appropriate language.
    In accepting this resolution I thank my good friend, the 
gentleman from California, for his most profound statements and 
certainly keen insights of the problems affecting Central Asia. 
I support the legislation, and I urge my colleagues to vote in 
favor of this.
    Mr. Bereuter. Thank you very much, Mr. Faleomavaega.
    If there are no further discussions, then the resolution is 
open for amendment. If there are no amendments, the occurs on 
agreeing to the resolution.
    As many as are in favor will say aye.
    As many as are opposed will say no.
    The ayes have it, and the resolution is agreed to.
    Without objection, the staff is authorized to make 
technical, grammatical, and conforming changes to the text of 
the resolution.
    The second resolution to be considered today is H. Con. 
Res. 328, which the clerk will now read.


                   consideration of h. con. res. 328


    Mr. Ennis. House Concurrent Resolution 328, a concurrent 
resolution expressing the sense of the Congress in recognition 
of the 10th anniversary of the free and fair elections in Burma 
and the urgent need to improve the democratic and human rights 
of the people of Burma.
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, printed in the record in 
full, and open to amendments.
    [The resolution appears in the appendix.]
    Mr. Bereuter. The Chair would explain that H. Con. Res. 328 
was introduced on May 16 by the gentleman from Illinois, Mr. 
Porter, and referred to the Subcommittee on Asia and the 
Pacific.
    For over 10 years, the Burmese military regime, now known 
as the State Peace and Development Council [SPDC] has refused 
to implement the results of the 1990 elections which were won 
overwhelmingly by the National League for Democracy [NLD]. 
During this period, and indeed since 1962, when General Ne Win 
and the military seized control, the military has engaged in 
egregious, systematic violence and abuse of the fundamental 
human rights of ethnic minorities and other people of the 
country.
    The abuses of the junta in Rangoon most recently have come 
under international scrutiny, when, on August 24, Aung San Suu 
Kyi was denied the ability to visit NLD party officials at the 
offices of the party outside the capital. For 9 days, she and 
her associates were detained at a roadblock and eventually 
forcibly returned to their residences. Since that time, she and 
other NLD party leaders have been under virtual house arrest. 
Despite the military's denial of mistreatment, no independent 
observer has been allowed to visit, and the British Ambassador 
was roughed up when he attempted to force his way into her 
compound. In addition, party headquarters have been ransacked 
and papers seized. To justify their actions, the junta has 
issued the ludicrous charge that the NLD has formed an alliance 
with rebels in the provinces.
    It is entirely proper that the House of Representatives go 
on record condemning these human rights abuses and the 
political abuses ongoing. Since her electoral victory in 1990, 
Aung San Suu Kyi has been repeatedly arrested, threatened, and 
harassed. The illegal SPDC regime has done everything possible 
to discredit the NLD and its leader. Of course, this is simply 
wrong. It is outrageous, and we should say so. This is not, of 
course, the first time that the House or the Congress has 
spoken on this issue.
    At the appropriate time, the Chair will offer a friendly 
amendment to update the resolution and address a number of 
concerns that have been raised regarding the initial draft. We 
have had good cooperation working with Mr. Porter. I have had 
recent input from the gentleman from California, Mr. 
Rohrabacher, which took into account his concern about a 
misinterpretation of the language that was presented earlier.
    At this point, I would ask the distinguished gentleman from 
American Samoa, representing the Minority, if there are any 
remarks he would like to make, then we will open it up for 
discussion.
    Mr. Faleomavaega. Mr. Chairman, I want to thank you for 
taking up this piece of legislation. Thank you for your 
leadership in bringing this legislation to the Subcommittee.
    I believe the substance of this resolution is well taken, 
and we should express this true sense of the Congress in 
letting the leaders of Burma know that 10 years is a little too 
long. I certainly commend Suu Kyi for her efforts in not only 
being a true patriot but certainly a great leader of the 
Burmese people.
    I sincerely hope that with the proposed amendment as a 
substitute that we, as Members of the Subcommittee, will accept 
this resolution. Again, I thank you for bringing this to the 
Subcommittee's consideration.
    Mr. Bereuter. Thank you, Mr. Faleomavaega. We actually 
thought about bringing it up before the recess, but, in light 
of the happenings in Burma since, I am glad we could update it 
and bring to the attention of the House the outrageous things 
that have happened most recently. Fortunately, they have had 
wide international scrutiny.
    Are there other Members who wish to be recognized? The 
gentleman from California, Mr. Rohrabacher, first.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
commend you for bringing up this important resolution 
introduced by Mr. Porter which, as you say, is even more 
poignant today than it was when it was first introduced. It is 
a bipartisan resolution. It calls for an urgent need for 
improvement in human rights and democracy in Burma.
    At present there is a serious concern for the health and 
well-being of one of the true international heroes of our time, 
Aung San Suu Kyi, who is under intensified house arrest in 
Rangoon.
    I had the privilege of visiting with Aung San Suu Kyi in 
Rangoon not too long ago, and I found her to be one of the most 
clear-sighted and courageous political leaders that I have ever 
encountered in my life. She is not someone that those of us who 
believe in democracy and believe in the principles that were 
laid down in our own country 225 years ago, she is not one of 
those people, if we believe in these things, that we should 
ignore her plight or the plight of her country when they are in 
such a desperate situation.
    I also visited refugee camps over the last few years along 
the Thai-Burma border, and this last January I was there as 
well. My able assistant, Al Santoli, recently returned from the 
infamous Golden Triangle in August, and we have confirmed, I 
confirmed and Al Santoli confirmed, beyond any doubt, that the 
oppressive Burmese military regime is involved in very many 
scurrilous and criminal activities, and that this Burmese 
military junta is one of the most vile regimes on this planet.
    We also confirmed what has recently been reported in the 
Far Eastern Economic Review and Asiaweek magazine, stories that 
suggest that Burma has become Asia's first narcoterrorist 
state, which is also backed by the communist Chinese.
    Efforts by our allies in Asia to engage the SLORC regime 
with membership in ASEAN have backfired. The SLORC regime has 
become increasingly antagonistic toward Thailand, especially in 
its partnership with the fierce Wa tribal army, which has 
become the foremost opium and amphetamine trafficking group in 
South Asia. Although drought has reduced the size of the opium 
fields, heroin production in Burma has actually increased.
    Mr. Chairman, let us not kid ourselves. Burma supplies 
perhaps 30 to 40 percent of the world's heroin. The SLORC 
regime controls Burma with an iron fist. Anyone suggesting that 
the Burmese regime is just refraining from involving itself in 
the drug trade is living in a dream world. They are closely 
associated with the Wa. And of course the Wa army is led by 
Chinese communist officers, and they are the ones who are 
dramatically involved in drug and gun trafficking that goes 
right to the border of India and right down through central 
Burma. The SLORC is in charge of all of these areas of 
production and distribution of drugs.
    They are also involved with using force against Christian 
Karen and Karenni tribes, trying to force them out of their 
homelands and into refugee camps in Thailand. As I say, at the 
same time the Chinese military are securing routes for their 
own supplies and military operations right down the rivers, 
down to the coast of Burma, and into the Indian Ocean.
    The resolution today calls for the U.S. policy to demand 
basic democratic freedoms for all Burmese citizens and for the 
release of Aung San Suu Kyi and all political prisoners from 
prison and from house arrest. Also it calls on them to maintain 
political and economic sanctions on Burma until democracy and 
freedom are restored. Also, it calls upon the Burmese regime to 
eradicate the narcotics trade.
    Finally, let me just say that we should remind our 
Japanese, Australian, and ASEAN friends that ``engaging'' 
dictators like the one in Burma, like the SLORC regime, and 
engaging them with political and economic benefits before 
democracy is restored, is proving to be a formula for nothing 
more than a greater suffering for the Burmese people and 
greater instability for Southeast Asia. American policy would 
be better served by strongly supporting democratic forces in 
Burma and throughout South Asia, whether they are Burmese or 
whether they are tribal groups who have shunned the narcotics 
trade.
    We should go on record, and this resolution puts us on 
record to seek an end and to stand against this vile military 
regime in Burma. It has my strong support.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Rohrabacher. Yes.
    Mr. Faleomavaega. I couldn't agree more with the gentleman 
and his concerns and the sentiments brought in dealing with a 
country like Burma.
    I am sure the gentleman doesn't mean just to Australia or 
the members of ASEAN and that area of the world, but shall we 
say also the same for France in its current efforts in dealing 
with nondemocratic countries in the Middle East and in that 
region of the world?
    Mr. Rohrabacher. I agree with that as well.
    Mr. Faleomavaega. Thank you. I thank the gentleman.
    Mr. Rohrabacher. Absolutely.
    Mr. Bereuter. Thank you, Mr. Rohrabacher.
    Are there other Members? Dr. Cooksey? I know you and 
Congressman Campbell visited earlier this year. I am pleased to 
recognize you.
    Mr. Cooksey. Thank you. Congressman Payne and I visited as 
well.
    I genuinely support the gist of this concurrent resolution. 
The leadership in Burma are military dictators. When we were 
there, we met with the No. 3 guy on down, and some of the 
leadership are reasonable, but probably the No. 1 and 2 guys 
are either unreasonable or not smart enough to be reasonable.
    It is a military dictatorship. There is no way to justify 
their position. They tried to talk to me like they do their 
people, or one of their foreign ministers did, and I got up and 
said, ``I don't have time to listen to this.'' when you get as 
old as I am, and when you have been in the military, you can 
just do what you want to, so I left the discussion. He was much 
nicer to me the next time I saw him.
    Unfortunately, they are holding Aung San Suu Kyi. This 
woman has more courage than anyone else in Burma. She is a 
bright, articulate, very well-educated lady. I did warn the 
leadership there, I said the most important thing you need to 
do is make sure nothing happens to this lady, because if it 
does, the wrath of the world is going to come down on you and 
wipe you out overnight. I think they recognize that, because 
these guys are basically a bunch of cowards. It is just that 
they have guns and other people don't.
    I don't agree with the idea of putting sanctions on. We 
have done sanctions, or we did sanctions in 1979, which was a 
misguided effort. We have done it in the last several years. 
Sanctions hurt the people that they are really intended to 
help. I think it is a waste of time. It is a futile effort, but 
it makes the people who say ``I want sanctions'' feel better. 
But if the people who want sanctions want to do something 
meaningful, they need to go over and tell these dictators that 
they are out of touch, that they cannot continue the way they 
are, and to call their hands, call their bluffs, because a lot 
of what they are doing is bluffing.
    So I am not certain, in fact I just don't think it is good 
to put any type of economic sanctions on anyone. I don't think 
it works. It's a waste of effort.
    I do think that this is an important part of the world. 
There is no question that there are drugs being produced in 
this area. I think that they have made some efforts to stem the 
drug production and the flow of drugs. Part of what they have 
done is to make visiting people from other countries feel like 
they are doing a good job, but they have, in fact, done some 
things, I think, to stem the flow of drugs, and they are trying 
to help the farmers do something other than raise poppies and 
opium.
    So it is a difficult part of the world, there are some 
wonderful people in Burma, it is just that the problem is that 
the wonderful people don't have guns. All they have got is 
their intelligence and their integrity, and the dummies have 
the guns as is so often the case in some of these 
dictatorships.
    On the whole, though, I would support this resolution. Did 
I make myself clear?
    Mr. Bereuter. Thank you very much, Dr. Cooksey. I think you 
have.
    Seeing no further requests for time, then, we will proceed 
to an opportunity to amend the resolution before us, and the 
Chair offers an amendment. I would advise Members that it is in 
your package. It is an updating amendment. The Clerk will read 
the amendment.
    Mr. Ennis. Amendment to H. Con. Res. 328 offered by Mr. 
Bereuter. Amend the 11th whereas clause----
    [The amendment appears in the appendix.]
    Mr. Bereuter. Without objection, the amendment will be 
considered as read, printed in the record, and open for 
amendment.
    As the Chair has already noted, this is a friendly 
amendment offered with the concurrence of the gentleman from 
Illinois, Mr. Porter, the author, designed to update the 
situation in Burma and address two concerns that were raised 
regarding the base text.
    First, the amendment updates the current language to 
reflect the standoff between Aung San Suu Kyi and the military 
by including six new whereas clauses. These clauses detail the 
denial of right to movement and association, the seizure of 
documents and NLD party headquarters. The new language makes it 
clear that Aung San Suu Kyi was clearly within her rights in 
attempting to visit party offices and that there is no 
justification for the roadblock established by the SPDC.
    Second, there is a technical change to the 12th whereas 
clause and its reference to Burmese narcotics activity. For the 
sake of accuracy, it corrects the name of the narcotics report 
to the Department of State International Narcotic Control 
Strategy Report, adding the word ``strategy,'' which had 
inadvertently been omitted.
    Last, the amendment alters resolved clause No. 3. The 
resolution, as introduced, endorses the economic and political 
sanctions that are currently in force. Unfortunately, in this 
Member's judgment, the sanctions are simply not having the 
desired effect. I don't know a good answer for having the 
desired effect, but I don't think we should suggest that it is 
having a desired effect. Burma has not been isolated. Since 
enactment of the Cohen-Feinstein sanctions, Burma has become a 
full member of ASEAN. Burma's neighbors, and other important 
countries in Asia, like China, India, Japan, and Southeast 
Asian nations, are pursuing a policy of engagement with Burma. 
This was mentioned, I think, by the gentlemen from California 
and Louisiana. Australia prefers a policy of what it considers 
to be constructive engagement. Even the EU countries, which 
have joined us in expressing outrage against the policies of 
the Burma junta, have generally not imposed economic sanctions.
    As usual, in this Member's judgment, while unilateral 
economic sanctions make us feel good, they rarely are effective 
in forcing change on recalcitrant regimes. They need to be 
broadly supported, multilateral sanctions to have any impact, 
as they eventually were with respect to South Africa. 
Unfortunately, the regime's outrageous behavior and stubborn 
refusal to even engage the NLD in a meaningful dialogue leaves 
us with very few options that have been put on the table.
    Let me make myself clear. I do not have an effective 
alternative to the sanctions policy. I welcome suggestions from 
Members as we look at this issue in the Subcommittee 
deliberations and as we engage in conversation with each other. 
I am as frustrated as any Member perhaps with the Burmese 
junta. However, we should not delude ourselves by thinking that 
the current policy is effective. I therefore requested, and Mr. 
Porter agreed, to modify this language to say that the United 
States should ``continue to pursue policies with regard to 
Burma designed to,'' and leave intact, then, those two, three, 
or four subparagraphs.
    Those that support the sanctions policy can, if they 
choose, read this as an endorsement of sanctions. However, 
there is sufficient flexibility in the language to address the 
concerns of those who are frustrated with the ineffectiveness 
of the sanctions.
    The Chair would note that the resolution's author, Mr. 
Porter, is comfortable with the proposed change, and so is the 
Chairman of the International Operations and Human Rights 
Subcommittee, Mr. Smith.
    Are there Members who would like to speak to the amendment?
    Seeing none, as many are in favor of the amendment will say 
aye.
    As many as are opposed will say no.
    In the opinion of the Chair, the ayes have it.
    Are there further amendments?
    Seeing none, recognizing Members, the question occurs on 
agreeing to the resolution as amended.
    As many as are in favor will say aye.
    As many as are opposed will say no.
    The ayes have it, and the amendment is agreed to.
    Without objection, the staff is authorized to make 
technical, grammatical, and conforming changes to the text just 
agreed to.
    I thank my colleagues for their participation and 
involvement in the Subcommittee markup. Appreciate it very 
much.
    The gentleman from Louisiana would like to be recognized 
before adjournment?
    Mr. Cooksey. Let me mention something. I assume there is 
someone here from Burma, perhaps? OK.
    One of the dilemmas you have over there is something that 
has occurred in other countries where you have these military 
dictatorships. There are actually some people that we met in 
the leadership that are reasonable, intelligent, thoughtful, 
sensitive people. I will not identify them, for their own 
benefit. But there are some that are not. Part of the dilemma 
is that the current leadership is reluctant to relinquish power 
because they do not know what will happen to them. They could 
be put in jail, could be tried, could have a lot of things, 
undesirable from their standpoint, that could happen to them.
    I got the impression from talking to the opposition, and we 
met with all the opposition, that the opposition would be 
willing to give them some degree of immunity, or almost total 
immunity, if they would allow them to carry out the needs of 
the people and the vote that was carried out, when they had 
that vote previously. I think something along those lines 
should be done.
    Now, let me tell you a classic example of where it was done 
and it was a disaster, and that was in Sierra Leone. Some 
people from this country, from this government, from this 
administration, encouraged the inclusion of Foday Sankoh in the 
government of Sierra Leone. Then they made him the Minister of 
Mines, in a country where a war is being fought over diamonds, 
which was just about the dumbest thing anyone could do. These 
were Americans that were supporting it, and all of them were 
supporting Charles Taylor, who was propping up the guerrillas.
    Anyway, I don't think we need to do anything that dumb or 
that stupid, but we should do something to give these guys some 
degree of immunity, and then maybe they will get out of 
government, because they know someday it's going to blow up in 
their faces. I hate to see these people have another bloody 
war, because the people there are kind, gentle, genteel people. 
But something needs to be done.
    Thank you.
    Mr. Bereuter. Thank you, Dr. Cooksey. I think you have 
prompted remarks from the gentleman from American Samoa.
    Mr. Faleomavaega. I wanted to share the sentiments 
expressed by my good friend and gentleman from Louisiana, and I 
wanted to ask if our friends over there in the audience are 
from the Burmese Embassy or are they from the opposition?
    From the opposition. I thought maybe it was from the 
Burmese Embassy.
    I wanted to express one of the things mentioned by a recent 
delegation to Southeast Asia. Of course there is perhaps a 
difference of opinion, as it was expressed to us by the Foreign 
Minister of Thailand, but some of these Southeast Asian 
countries recognize Burma as a fellow country or nation 
because, in their viewpoint, it is better to be engaged with 
them, despite their political differences, than to avoid them 
at all costs.
    I am wondering also that, as Dr. Cooksey said earlier, and 
as sanctions have not worked and will continue not working as 
long as the Burmese government continues to be the No. 1 seller 
of heroin in the world, that from that economic standpoint, it 
seems that sanctions have not worked very well and perhaps 
there may be some other ways we could establish better 
influence to see that the Burmese people themselves would rise 
up and get rid of these dictators, if there is any way 
possible.
    It is easy for me to say this, but we know this has been 
difficult for the East Timorese, this has been difficult even 
currently for the West Papua New Guineans, this has been 
difficult for many other peoples from other regions of the 
world. I just wanted to add, to complement what Dr. Cooksey 
said earlier, and thank again the gentleman for bringing this 
resolution.
    Mr. Bereuter. I thank you for your remarks. I guess I would 
just react to the gentleman's statement, with which I generally 
agree, perhaps totally, by suggesting that if the other 
countries of ASEAN would in fact embrace the economic 
sanctions, they might have a chance to become effective. I 
think it would be much more difficult for Japan, for example, 
and Australia, to ignore those at least ASEAN-U.S. sanctions 
and therefore make it a broader kind of coalition of sanctions 
that might have an impact.
    But with ASEAN bringing in Cambodia, Laos, Vietnam, and 
Burma--an interesting group of countries--it is causing ASEAN 
to be more timid than I had hoped they would be and to be less 
inclined to take any kind of a leadership role. That is a 
difficult group of countries to try to integrate into the 
modern world, and I do have sympathy with the task before them.
    I thank my colleagues for their interest in this subject 
and for their comments, and with those comments we will now 
adjourn.
    [Whereupon, at 2:08 p.m., the Subcommittee was adjourned, 
subject to the call of the Chair.]
      
=======================================================================




                            A P P E N D I X

                           September 13, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7039.001
    
    [GRAPHIC] [TIFF OMITTED] T7039.002
    
    [GRAPHIC] [TIFF OMITTED] T7039.003
    
    [GRAPHIC] [TIFF OMITTED] T7039.004
    
    [GRAPHIC] [TIFF OMITTED] T7039.005
    
    [GRAPHIC] [TIFF OMITTED] T7039.006
    
    [GRAPHIC] [TIFF OMITTED] T7039.007
    
    [GRAPHIC] [TIFF OMITTED] T7039.008
    
    [GRAPHIC] [TIFF OMITTED] T7039.009
    
    [GRAPHIC] [TIFF OMITTED] T7039.010
    
    [GRAPHIC] [TIFF OMITTED] T7039.011
    
    [GRAPHIC] [TIFF OMITTED] T7039.012
    
    [GRAPHIC] [TIFF OMITTED] T7039.013
    
    [GRAPHIC] [TIFF OMITTED] T7039.014
    
    [GRAPHIC] [TIFF OMITTED] T7039.015
    
    [GRAPHIC] [TIFF OMITTED] T7039.016
    

</pre></body></html>
